<html>
<title> - RADICALIZATION IN THE U.S. AND THE RISE OF TERRORISM</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


          RADICALIZATION IN THE U.S. AND THE RISE OF TERRORISM

=======================================================================

                              JOINT HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                AND THE

                 SUBCOMMITTEE ON GOVERNMENT OPERATIONS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 14, 2016

                               __________

                           Serial No. 114-163

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-122 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4c2b3c230c2f393f382429203c622f232162">[email&#160;protected]</a>                     
                      
                     
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
CYNTHIA M. LUMMIS, Wyoming           ROBIN L. KELLY, Illinois
THOMAS MASSIE, Kentucky              BRENDA L. LAWRENCE, Michigan
MARK MEADOWS, North Carolina         TED LIEU, California
RON DeSANTIS, Florida                BONNIE WATSON COLEMAN, New Jersey
MICK MULVANEY, South Carolina        STACEY E. PLASKETT, Virgin Islands
KEN BUCK, Colorado                   MARK DeSAULNIER, California
MARK WALKER, North Carolina          BRENDAN F. BOYLE, Pennsylvania
ROD BLUM, Iowa                       PETER WELCH, Vermont
JODY B. HICE, Georgia                MICHELLE LUJAN GRISHAM, New Mexico
STEVE RUSSELL, Oklahoma
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                    Andrew Dockham, General Counsel
       Dimple Shah, National Security Subcommittee Staff Director
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                   Subcommittee on National Security

                    RON DeSANTIS, Florida, Chairman
JOHN L. MICA, Florida                STEPHEN F. LYNCH, Massachusetts, 
JOHN J. DUNCAN, JR., Tennessee           Ranking Member
JODY B. HICE, Georgia                ROBIN KELLY, Illinois
STEVE RUSSELL, Oklahoma, Vice Chair  BRENDA L. LAWRENCE, Michigan
WILL HURD, Texas                     TED LIEU, California
                                 ------                                

                 Subcommittee on Government Operations

                 MARK MEADOWS, North Carolina, Chairman
JIM JORDAN, Ohio                     GERALD E. CONNOLLY, Virginia, 
TIM WALBERG, Michigan, Vice Chair        Ranking Minority Member
TREY GOWDY, South Carolina           CAROLYN B. MALONEY, New York
THOMAS MASSIE, Kentucky              ELEANOR HOLMES NORTON, District of 
MICK MULVANEY, South Carolina            Columbia
KEN BUCK, Colorado                   WM. LACY CLAY, Missouri
EARL L. ``BUDDY'' CARTER, Georgia    STACEY E. PLASKETT, Virgin Islands
GLENN GROTHMAN, Wisconsin            STEPHEN F. LYNCH, Massachusetts
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 14, 2016...............................     1

                               WITNESSES

Daveed Gartenstein-Ross, Ph.D, Senior Fellow, Foundation for 
  Defense of Democracies
    Oral Statement...............................................     6
    Written Statement............................................     9
Mr. Matt A. Mayer, Visiting Fellow, Homeland Security Studies, 
  American Enterprise Institute
    Oral Statement...............................................    21
    Written Statement............................................    23
Mr. David Inserra, Policy Analyst, Foreign and National Security 
  Policy, The Heritage Foundation
    Oral Statement...............................................    27
    Written Statement............................................    29
Mr. Richard Cohen, President, Southern Poverty law Center
    Oral Statement...............................................    37
    Written Statement............................................    39

                                APPENDIX

March 2014 Journal Forensic Sciences ``Bombing Alone'' submitted 
  by Mr. Hice....................................................    64
Articles submitted by Mr. DeSantis:
Counterpunch ``King of the Hate Business'' May 15, 2009..........    74
Second Class Justice ``Morris Dees and the Southern Poverty Law 
  Center'' Sept 9, 2012..........................................    77
CNN ``Prosecutors Say'' July 2, 2013.............................    83
Foreign Policy ``The Hate List'' March 12, 2013..................    86
National Review ``The SPLC and Slant'' March 15, 2013............    91
Weekly Standard ``King of Fearmongers'' April 4, 2013............    93
Weekly Standard ``Another Killer Cites the Southern Poverty Law 
  Center'' Feb 11, 2015..........................................   110

 
          RADICALIZATION IN THE U.S. AND THE RISE OF TERRORISM

                              ----------                              


                     Wednesday, September 14, 2016

                  House of Representatives,
 Subcommittee on National Security, joint with the 
             Subcommittee on Government Operations,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittees met, pursuant to call, at 2:22 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Ron DeSantis 
[chairman of the Subcommittee on National Security] presiding.
    Present from the Subcommittee on National Security: 
Representatives DeSantis, Mica, Duncan, Hice, Hurd, and Lynch.
    Present from the Subcommittee on Government Operations: 
Representatives Meadows, Carter, Grothman, Connolly, Maloney, 
and Plaskett.
    Mr. DeSantis. The Subcommittee on National Security and the 
Subcommittee on Government Operations will come to order. 
Without objection, the chair is authorized to declare a recess 
at any time.
    On June 12, 2016, Omar Mateen killed 49 people and injured 
another 53 in an attack on a nightclub in Orlando. The shooter 
made three calls to 911 during the attack. According to FBI 
Director James Comey, Mateen dedicated his attack to the 
Islamic State and its leader, Abu Bakr al-Baghdadi. During the 
calls, Mateen also expressed admiration for the Tsarnaev 
brothers, the Boston Marathon bombers, as well as a Florida 
suicide bomber for the al-Nusrah Front, a group that engages in 
terrorism in Syria.
    While some, such as Attorney General Loretta Lynch, were 
unsure about Mateen's motivations, the evidence points in only 
one direction: He killed in support of a terrorist ideology.
    Prior to the shooting, Mateen was investigated by the FBI. 
That investigation, which began in May of 2013, was more than 
just an inquiry. The FBI interviewed him twice, dispatched an 
informant to get close to him, conducted surveillance of his 
movements, and scrutinized his communications.
    Ten months later the investigation was closed. Agents 
concluded that Mateen was not a threat and had broken no laws. 
He was put on a watch list during his investigation, but once 
the investigation was closed, he was removed from the list.
    Two months after that investigation concluded, Mateen again 
came onto the FBI's radar when Moner Mohammad Abu-Salha, a 
Florida man who attended the same mosque as Mateen, blew 
himself up as a suicide bomber for the Al Qaeda-affiliated al-
Nusrah Front in Syria. And he had gone to Syria previously, 
trained, came back to Florida undetected, went back to commit 
that attack.
    The second investigation apparently ended when the FBI 
could find no connection of consequence between Mateen and the 
suicide bomber.
    Although the FBI's own investigation of its handling of the 
Mateen case is ongoing, there have been no suggestions that the 
Bureau handled the Mateen case any differently than the 
thousands of other terrorist leads that it receives annually.
    Now, both Al Qaeda's global network, as well as the Islamic 
State, among several other terrorist networks around the world, 
promote a global jihadist ideology. As the Congressional 
Research Service has found, these terrorists use, quote, 
``Islam as an ideological and/or religious justification for 
their belief in the establishment of a global caliphate, a 
jurisdiction governed by a Muslim civil and religious leader 
known as the caliph, via violent means,'' end quote.
    This committee began to look at the issue of radicalization 
by ISIS and other terrorist groups on October 28, 2015, when we 
held a hearing entitled ``Radicalization: Social Media and the 
Rise of Terrorism.''
    The Orlando attack underscores the importance of the 
committee's investigation into the ways terrorists in the 
United States become radicalized. This investigation is 
relevant to protecting the public from future attacks.
    Now, the June 12 attack in Orlando, the July 14 attack in 
Nice, France, and other recent terrorist attacks in the United 
States and abroad, committed by radicalized Islamic extremists 
target unsuspecting populations in vulnerable public places, 
represents the prevailing template for terrorist attacks. In 
just the last 7 months, attacks in Orlando, Nice, Brussels, San 
Bernardino, and Paris revealed that ISIS has become successful 
at using our country's own population against itself.
    Indeed, recent reports indicate that since 2011, over 
30,000 people from over 100 different countries have traveled 
to the conflict zone in Syria and Iraq to join the fighting 
there. This group includes over 4,500 Westerners and over 250 
Americans, all of whom have joined or attempted to join 
extremist groups in an effort to wage jihad.
    Recent terrorist attacks have also shown that so-called 
lone wolf terrorism has become a growing concern for government 
and law enforcement agencies in the United States. Individual 
terrorists have proven capable of committing a wide range of 
violent attacks, even though those individuals had no formal 
connection to terrorist groups. These have included mass 
shootings, bombings, assassinations.
    The unprecedented speed with which such individuals are 
being radicalized by violent Islamic extremists is difficult 
for law enforcement to track and is straining the ability of 
government to monitor and intercept suspects. Part of this may 
have to do with the very technological advances that have 
otherwise improved our way of life.
    Research has shown that since the terrorist attacks of 
September 11, the preferred method for recruiting radicals had 
changed. Before 9/11, the Internet contributed to only 3 
percent of all radicalizations, but as of 2014, it contributed 
to roughly 20 percent.
    The evolution of radical movements may also play a role in 
the speed by which potential terrorists become radicalized. 
Today, only 42 percent of radicals identify with a specific 
terrorist organization, compared to 63 percent between the 
1960s and 1990s.
    The long-term trend towards so-called lone wolf terrorism 
makes it challenging to stop terrorist attacks before they 
occur. Authorities have had far more success penetrating plots 
concocted by several different people than by individuals who 
simply choose to act on their own. U.S. policies regarding 
intelligence, military operations, and immigration should 
reflect this new reality.
    I thank our witnesses for their testimony today as it is 
important that we continue to examine the issue related to 
radicalization by Islamic extremists and what can be done to 
combat this growing problem.
    And I now recognize the ranking member of the Subcommittee 
on National Security, Mr. Lynch, for his opening statement.
    Mr. Lynch. Thank you very much, Mr. Chairman. I want to 
thank yourself and Chairman Meadows and Ranking Member Connolly 
for holding this hearing to examine the threat of extremism and 
radicalization, especially of the homegrown ilk. And I would 
also like to thank today's expert witnesses for helping the 
committee with its work.
    As reported by the Combined Joint Task Force Operation 
Inherent Resolve last month, the U.S.-led coalition to combat 
ISIS has killed at least 45,000 ISIS fighters since September 
of 2014 and liberated about 25,000 square kilometers in Iraq 
and Syria. This amounts to more than half of what ISIS 
previously controlled in Iraq and roughly 20 percent of 
formerly held territory in Syria.
    According to Defense Secretary Ashton Carter, the terrorist 
organization is also on the verge of losing its regional 
stronghold in Libya as its fighters retreat from their tactical 
center in the city of Sirte.
    It is clear that the battlefield losses have degraded ISIS 
to some degree and their ability to maintain offensive 
operations on the ground in Iraq and Syria and Libya and 
recruit other U.S. and foreign fighters to the region. However, 
the facts on the ground have also led the group to shift its 
militant strategy towards directing and inspiring terrorist 
attacks in the West.
    FBI Director James Comey recent predicted that while the 
global coalition will eventually crush ISIS, and I quote him 
here, ``Through the fingers of that crush are going to come 
hundreds of really dangerous people,'' close quote, intent on 
bringing the fight to Western Europe and the United States. He 
has also noted that the FBI is tracking nearly 800 ISIS-related 
cases across our country. That is 80 percent of all the FBI 
cases nationwide.
    This strategic shift has already manifested itself in an 
escalation of ISIS-directed or ISIS-inspired attacks in Western 
countries and worldwide. These include the coordinated suicide 
bombings and shootings in Paris, Brussels, Istanbul, and 
Ankara, as well the cargo truck attack in Nice, France, the 
cafe attack in Dhaka, Bangladesh, and in the United States, the 
terrorist attacks in San Bernardino and Orlando.
    The June 20, 2016, attack in Orlando is also the most 
recent example of the rising threat of homegrown violent 
extremism in the U.S. that has accompanied ISIS' continued 
calls for lone wolf attacks. As reflected in the 911 transcript 
released by the FBI, the Orlando shooter, Omar Mateen, 
repeatedly pledged his allegiance to ISIS while he perpetrated 
the attack, and one day later ISIS issued a statement deeming 
Mateen one of the soldiers of the caliphate.
    Given the grave threat posed by homegrown violent 
extremism, national security demands that we work in a 
bipartisan manner to adopt practical reforms based on the 
lessons learned from Orlando, San Bernardino, and other 
attacks.
    Since 9/11, the FBI has primarily focused its 
counterterrorism efforts on disrupting terrorist networks. 
However, the facts surrounding Orlando indicate that we must 
also ensure that Federal law enforcement and Homeland Security 
agencies are adapting to the prevalence of lone wolf attacks 
that are inspired to be conducted by foreign terrorist 
organizations.
    I would note that the FBI previously investigated Mr. 
Mateen on radicalization grounds, as the chairman noted, on two 
separate occasions and even placed him on a terrorist watch 
list. He did not, however, remain on the agency's radar given 
the absence of any, quote, ``ties of consequence,'' close 
quote.
    Now, common sense also dictates that we address the 
accessibility of firearms to individuals who are known or 
suspected terrorists. While Federal law specifies several 
grounds to disqualify a potential buyer from firearms 
eligibility, being on a terrorist watch list is not currently 
one of those.
    Moreover, we must continue to develop a long-term and 
comprehensive strategy to counter the pervasiveness of 
extremism and their messaging, abroad and at home. And as 
recommended by Ms. Farah Pandith, appointed by Secretary 
Clinton in 2009 to serve as the first State Department Special 
Representative to Muslim Communities, future actions designed 
to combat radicalization and homegrown violent extremism should 
include diplomatic and economic consequences for foreign 
nations that support the exportation of extremist ideologies. 
They must also include coordinated and proactive efforts to 
push back against extremist propaganda online.
    I want to thank you again, Mr. Chairman. I look forward to 
examining issues related to the homegrown violent extremism in 
our country and other forms of radicalization with our 
witnesses. And I yield back the balance of our time.
    Mr. DeSantis. The gentleman yields back.
    I now recognize Mr. Meadows, chairman of the Subcommittee 
on Government Operations, for his opening statement.
    Mr. Meadows. Thank you, Mr. Chairman. And I thank you and 
the Ranking Member, Mr. Lynch, for your leadership in making 
sure that this hearing happened.
    Good afternoon. Welcome to all of the witnesses.
    I would like to first begin by offering not only my 
thoughts, but my prayers for the victims and families that we 
lost in this summer's string of terror attacks throughout the 
world, specifically this June. As we all know now, in Orlando 
the event cut short nearly 50 innocent lives, which was the 
worst attack on American soil since 9/11. And I will continue 
to pray and encourage others to continue to pray for those who 
grieve, and pray for those who were injured for a complete 
recovery.
    We must remain vigilant, however, and remember that an act 
of terrorism by radical Islamic extremism and extremists like 
what happened in Orlando could have happened anywhere in the 
United States, including my home State of North Carolina. The 
Americans that have been radicalized as part of an Islamic 
extremist movement do not fit necessarily any sort of a 
demographic model. It is seemingly random in nature.
    And the attacks that are made up from this homegrown 
violent extremist group are especially challenging for our law 
enforcement officers. In fact, the attacks in Orlando were 
carried out by a lone wolf terrorist who had already been 
investigated by the FBI. And so it shows the complexity of what 
we are dealing with.
    Today's hearing will examine ways in which we can give our 
law enforcement agencies and communities the tools that they 
need to prevent this lone wolf radicalization before it starts.
    I might add that at times we continue to talk about lone 
wolf, but, indeed, they are not necessarily lone wolves, 
because they are connected to someone, somewhere who assists 
them in carrying this out. Indeed, anyone with a smartphone has 
the potential to become radicalized. Jihadists have been able 
to exploit the Internet as a medium for recruitment and the 
dissemination of propaganda and communication, and our 
witnesses hopefully will provide insight into how the Internet 
can provide an opportunity for our law enforcement and 
intelligence community to be able to identify these potential 
lone wolf actors and intercept terror plots and to counter the 
extremist message that is flooded, literally flooded, through 
social media by radical Islamic terrorist groups like ISIS.
    This hearing will also be able to examine the strategies 
that both law enforcement and the administration can undertake 
to address the growing threat of radicalized Americans 
returning to the U.S. as foreign fighters. This threat from the 
foreign fighters cannot be overstated. And as we look at that, 
the devastating attacks this past November in Paris were 
carried out by a French national who, indeed, had been trained 
with ISIS in Syria and then returned to France. And a few 
months later, in March of this year, foreign fighters from the 
same ISIS cell as the Paris attackers carried out a series of 
bombings in Brussels in what would be the deadliest act of 
terrorist in Belgium's history.
    So I look forward to hearing from each one of our witnesses 
today on how the United States can best address this 
radicalization of homegrown violent extremists and the 
unpredictability of lone wolf attacks and the rising threat of 
foreign fighters.
    And finally, pray for our law enforcement officers who have 
a target on their back, indeed, each and every day. And I would 
like to thank you, and I thank the chairman for his leadership 
on this as you come and testify on this critical matter.
    I yield back.
    Mr. DeSantis. The gentleman yields back.
    I will hold the record open for 5 legislative days for any 
members who would like to submit a written statement.
    We will now recognize our panel of witnesses. I am pleased 
to welcome Dr. Daveed Gartenstein-Ross, senior fellow at the 
Foundation for Defense of Democracies; Mr. Matt Mayer, visiting 
fellow of homeland security studies at the American Enterprise 
Institute; Mr. David Inserra, policy analyst of foreign and 
national security policy at the Heritage Foundation; and Mr. 
Richard Cohen, president of the Southern Poverty Law Center.
    Welcome to you all.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. If you can please rise and raise your 
right hand.
    Do you solemnly swear that the testimony you are about to 
give will be the truth, the whole truth, and nothing but the 
truth, so help you God. Thank you. Please be seated.
    All witnesses answered in the affirmative.
    In order to allow time for discussion, please limit your 
oral testimony to 5 minutes. Your entire written statement will 
be made part of the record.
    Mr. Gartenstein-Ross, you are up.

                       WITNESS STATEMENTS

              STATEMENT OF DAVEED GARTENSTEIN-ROSS

    Mr. Gartenstein-Ross. Thank you, Mr. Chairman, and thank 
you all for holding this important hearing on this topic.
    Terrorism today is not what it was even 5 years ago. It is 
a much deeper problem and a much more complex problem than it 
used to be. Chairman DeSantis spoke of technology as being one 
of the key factors. I agree with this. We are living in a world 
that is more interconnected, especially through social media. 
We are living in a world with much moreencryption and where 
much more is dark to law enforcement than it used to be, and 
where networks can become demonstrably thicker, even in Western 
countries, than they were before.
    When we look at the scale of the problem, it is clear that 
terrorism is growing across multiple ideologies. ISIS is, of 
course, omnipresent in our statements, as it should be. I think 
that jihadist terrorism is the biggest threat we face today. 
But when we look beyond it to sovereign citizens, White 
nationalism, Black nationalist groups, it is very clear that we 
are seeing a rise in substate violence where some of the same 
external factors are helping to drive violence across all these 
ideologies.
    Looking at ISIS alone, we have had already, just since the 
caliphate was announced in 2014, over 100 arrests of members; 
we have law enforcement cases at the Federal level in all 50 
States; more than 250 Americans as of the end of last year who 
had either tried to go to Syria to join this extremist group or 
who succeeded in doing so; and a number of Americans, perhaps 
around 20, who have been killed over in the Syria-Iraq theater. 
This is a much bigger explosion in terrorism across this 
particular ideology than we have seen previously.
    Now, when we look at the factors I spoke to, social media 
makes us live in a much more interconnected world, and what is 
different about social media, or as its sometimes referred to, 
the Social Web, as distinct from Web 1.0 and 2.0, is that it 
puts people in proximity with each other. It is not CNN or ESPN 
that is the message. The message is other users. It fosters 
what one terrorism expert referred to as a sense of remote 
intimacy in which you feel as though you really get to know and 
are intimate with somebody who can be half a world away living 
in Raqqa.
    ISIS in particular has been very good at scoping out people 
who would potentially be amenable to their message and who 
might be drawn into the movement, preying upon vulnerabilities, 
needs, and other factors that are manifested in online users.
    Secondly, ISIS has been very good at using what I call 
virtual planners, people who aren't in any sort of physical 
proximity with terrorists but from abroad can help them to 
choose targets, choose timing, and even provide suggestions 
about technical details like bomb design.
    In the United States, we saw a virtual planner at play. 
This was in the Garland, Texas, attack that occurred last year 
in which Junaid Hussain was in touch with one of the attackers, 
Elton Simpson, and knew ahead of time that this attack was 
going to take place.
    We also can see, based on social media, that grievance can 
be stripped of context and omnipresence. We have seen this in a 
number of different examples. One example that comes up is some 
of the tough job of law enforcement. You have had both killings 
that are unjustifiable and that quite justifiably produced 
protests. You have other cases where it is not clear except to 
those who were on the scene what actually happened. But things 
can still spiral before the State can react and before an 
investigation can be done.
    Beyond the U.S. also, Internet penetration is growing in a 
number of critical regions. It is 29 percent in Africa today, 
53 percent in the Middle East, under 25 percent in South Asia. 
Just as we have seen the Internet have a big role in 
radicalization in places where it has high penetration, as more 
of the world comes online, we will see the same dynamic occur 
in multiple theaters.
    Now, in terms ofencryption the impact is very clear. On 
page 10 of my testimony I have a diagram of the Paris-Brussels 
network. This network represents a watershed. It is the first 
time that you had a jihadist network in Europe carry out a 
major attack, that being the Paris attack, then survive the 
full weight of law enforcement and intelligence resources 
coming down on them and carry out another major attack in 
Brussels.
    If you look at the depth of this network it is the kind of 
thing experts would have told you, correctly, was impossible in 
a Western state just 5 years ago. The big thing that has 
changed is encryption. No longer can governments reliably 
depend upon their electronic surveillance superiority in trying 
to disrupt these networks.
    Now, as to what the United States Government can do, I have 
a few suggestions. One thing is provide transparency. If you 
look at one situation that could have spiraled earlier this 
year, that being the standoff at the National Wildlife Refuge 
in Oregon, the FBI, when it came to ending the standoff, was 
able to put the entire thing on video and get it up on to 
YouTube quickly in order to dispel the kind of conspiracy 
theories and grievances that they understood could arise from 
that incident.
    Secondly, I believe that we need to move beyond what I call 
the myth of the lone wolf. In Europe there were a number of 
attacks prior to the Paris attack that were connected to that 
network that were described as lone wolf incorrectly, things 
like the Brussels Jewish Museum shooting, the Amsterdam-Paris 
train attack in which Americans were able to thwart that 
attack. In all of these cases, you had connections to the later 
Paris attackers. We missed the opportunity to understand that 
the network was there.
    In the United States we should not have a default 
assumption that attacks are lone wolf. I would say that, based 
on my review of the Orlando case, it isn't yet clear to me that 
this is actually a lone wolf case. We should be open, 
especially in this age of encryption, to the notion that there 
might be a network and our investigation isn't done right away.
    I look forward to further discussing things that we can do 
and how we can approach this very thorny problem set when we 
get to the questions. Thank you all.
    [Prepared statement of Mr. Gartenstein-Ross follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you.
    Mr. Mayer, you are up for 5 minutes.

                   STATEMENT OF MATT A. MAYER

    Mr. Mayer. Chairman DeSantis, Chairman Meadows, Ranking 
Member Lynch, Ranking Member Connolly, thank you for having me 
here today to talk about this very important issue.
    With more than 315 million Americans in the U.S. and our 
firm commitment to liberty, securing those people is among the 
most difficult activities of our domestic national security 
apparatus. The list of vulnerabilities across America are 
nearly endless, from malls to restaurants to businesses and to 
events. A determined terrorist merely has to acquire a means to 
so harm.
    As we have seen over the past fear years, that means can 
come in the form of a pressure cooker bomb in Boston, a semi-
automatic pistol in Texas, a hatchet on the sidewalk in Queens, 
and a handgun in Orlando. The injuries and deaths from these 
attacks are tragic and senseless.
    Because our domestic national security apparatus cannot 
stop every attack does not mean it should not stop some of the 
attacks. We will miss the terrorists who leave no trace of 
their plans before acting. We cannot miss the terrorists who 
provide clues about their intent and state of mind before 
acting. The fact that the FBI had investigated Omar Mateen 
several times indicates something went wrong.
    We may not get every investigation right, but we can make 
sure our policies give our domestic national security apparatus 
the greatest chance to detect and stop the terrorists before 
they act.
    As noted in June, the FBI, with roughly 13,000 agents, 
doesn't have the resources to adequately cover more than 1,000 
active probes and the tens of thousands of tips it receives 
every year. The FBI, however, is not alone. Standing next to 
those 13,000 agents are more than 1.1 million badged local law 
enforcement officers ready to lend a hand at a moment's notice.
    If we want to increase our chances against lone wolf and 
small cell terrorists, we must more fully leverage the men and 
women in local law enforcement. First, the FBI and other 
Federal law enforcement entities must do a better job of 
sharing information and intelligence with local law 
enforcement. To succeed at detecting and stopping terrorist 
attacks, our Federal and local law enforcement entities must be 
bolted together firmly to ensure all resources available are 
marshaled, leveraged, and synchronized.
    I respectfully suggest that the ideal locations to bring 
Federal and local players together are the joint terrorism task 
forces located in most major U.S. cities. Other information and 
intelligence-sharing initiatives operating separately from the 
JTTFs only increase the odds that key terrorism data do not get 
shared or inadvertently do not make it into a JTTF 
investigation.
    Next, Federal terrorism funds must be directed to support 
human intelligence operations by local law enforcement in key 
locations. With the substantial increase in terrorists' use of 
encrypted technology, the ability of our domestic national 
security apparatus to use signals intelligence to detect 
terrorists is diminishing.
    To overcome this challenge, local law enforcement should 
increase the use of HUMINT, monitoring, surveillance, and 
undercover work to identify terrorist plots and cells. This 
work should be done in accordance with procedures erected to 
protect civil liberties and in partnership with the FBI.
    In conjunction with the use of HUMINT, local law 
enforcement must counterbalance that hard power by deploying 
more soft power as well. Last month I outlined the development 
of regional outreach groups in at least 24 jurisdictions across 
America. ROGs will bring together law enforcement entities and 
Muslim community groups and mosque leaders to strengthen 
connections and build trust. It is vital that ROGs are led by 
local law enforcement entities and not Federal entities.
    Finally, given the enormous resources, personnel, 
experience, and relationships existing in States and 
localities, it is time those entities had permanent seats at 
the National Security Council. By giving governors, mayors, and 
local law enforcement permanent seats, we can ensure that our 
domestic national security policy maximizes the resources they 
have to contribute and properly represents the equities, 
concerns, and inputs.
    For too many years, Federal entities have served as 
gatekeepers of State and local injects into national 
policymaking. Under our tripartite system of government, States 
and local governments deserve their own representative voices 
in Washington, D.C.
    Instead of reacting to what happened in the past, Congress 
should preemptively enact reforms that address what we imagine 
will be elements of future attacks. By strengthening the 
relationship between components of our domestic national 
security apparatus, we can inject fidelity into the system. By 
broadening the use of human intelligence by local law 
enforcement, we can insert nimbleness andcertainty into the 
system. By deepening connections and trust among local law 
enforcement and the Muslim diaspora, we can inoculate our 
communities from the virus spread by radical Islamic groups. By 
leveraging the expertise residing in communities across America 
in the development of our national domestic security policy, we 
can boost the odds that we adopt policies that actually work.
    Whether we like it or not, the use of terrorism by those 
who hate us or seek to use conflict with us to rally adherence 
to their warped cause will be a constant bedfellow for us in 
the decades to come. We may or may not be able to change hearts 
and minds in the Middle East, but we certainly can put in place 
policies here that protect Americans from the worst emanations 
of our enemies. When it comes to protecting our cities and the 
people therein, local law enforcement must play a more 
prominent role.
    On Saturday, I leave for Europe to get briefings from the 
major security groups in London, Paris, Brussels, The Hague, 
and Stuttgart. I would be happy to come back to brief members 
and staff on those findings once we have them.
    Thank you for the opportunity to testify and answer any 
questions you may have.
    [Prepared statement of Mr. Mayer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you.
    Mr. Inserra, you are up for 5 minutes.

                   STATEMENT OF DAVID INSERRA

    Mr. Inserra. Thank you. My name is David Inserra, and the 
views I express in this testimony are my own and should not be 
construed as representing any official position of The Heritage 
Foundation.
    Even before the attacks on Paris, San Bernardino, Brussels, 
Orlando, and Nice, there was plenty to suggest that the face of 
the global Islamist terrorist movement had come to look very 
different from what confronted the world over a decade ago. The 
list of what has changed is quite long, from ISIS getting its 
own state, to the much discussed role of social media and the 
Internet.
    Now we must answer new questions, like how to handle 
terrorist travel in an age of refugees and foreign fighters, 
and so we must assess the current state of the Islamist threat 
facing the U.S. As part of my research I track Islamist terror 
plots and attacks against the U.S. homeland. Since 9/11, there 
have been 89 plots and attacks. That is a large enough data set 
for a credible trend analysis to tell us more about the 
character of the threat.
    There are three trends that I would like to tell the 
committee about and then offer some thoughts on the way 
forward.
    First, the frequency of the plots has dramatically 
increased. There have been 25 successful or interrupted 
terrorist plots in the U.S. since the start of 2015, as opposed 
to only a handful in both 2013 and 2014. As a result, the 
threat is getting deadlier. While we have had 11 successful 
Islamist terrorist plots since 9/11, 5 of those successful 
plots have occurred since the start of 2015, resulting in the 
greatest loss of life from Islamist terrorism on U.S. soil 
since 9/11 with 68 innocent victims.
    Second, overwhelmingly these plots are emanating from the 
homefront. All 25 terrorist plots involve a homegrown element, 
and since 9/11, 78 out of 89 terrorist plots have involved a 
homegrown terrorist. And importantly, ISIS has become the 
dominant influencer by far. At least 21 out of the 25 plots 
contained affiliation with, support for, or inspiration from 
ISIS.
    And the third trend I want to talk about is that the plots 
are becoming more dispersed across the U.S. and targeting a 
greater variety of targets. Looking at recent plots, 6 targeted 
military installations, 4 targeted law enforcement, 1 targeted 
a government building, 10 targeted public gatherings like 
malls, a beach, or bars, and 4 targeted religious buildings or 
schools.
    In prior years, the military was the number one target, but 
lately these public mass gatherings of so-called soft targets 
have become the primary targets, and we have also seen an 
increase in attacks on law enforcement.
    Similarly, in prior years, the plots were generally 
clustered in the New York to Washington, D.C., corridor, but in 
the last year and a half, the target cities have widely ranged 
from Houston to San Bernardino, and from Chicago to the Florida 
Keys.
    These trends are clear: more threats, more from inside the 
United States, more related to ISIS, more dispersed, and, 
unfortunately, more successful and more deadly.
    Given these trends, I would like to offer some thoughts on 
how we can stop these terrorists. At least 15 out of the 25 
most recent plots were interdicted using sting-type law 
enforcement operations and confidential informants to unearth 
terrorist conspiracies. In 19 out of the 25, law enforcement 
investigations of some kind were instrumental in detecting and 
stopping these attacks, while 5 were successful and only 1 was 
stopped by security officers on the scene.
    This trend leads to the conclusion that the U.S. has become 
and remains a relatively harder target for transnational 
terrorist operations than it was before 9/11. Yet we face a 
more active threat, an assessment that is confirmed by 
statements and reports by the FBI and the U.S. intelligence 
community.
    Our greatest asset in preventing terrorism has been and 
must continue to be Federal, State, and local law enforcement, 
as well as our intelligence communities, armed with the tools, 
information, and resources they need. Since 9/11, the U.S. has 
taken important steps in this direction, but we must continue 
to improve and refine these tools.
    This does not mean that our government can ignore our 
rights under the Constitution; every program and law must meet 
constitutional scrutiny. But this does mean that within the 
bounds of the Constitution, strong and proactive investigatory 
tools should be given to our security forces with careful 
oversight from all branches of government. In so doing, we can 
maximize both our security and our liberty, rather than trading 
one for the other.
    I look forward to discussing this with you more in our 
questions. Thank you.
    [Prepared statement of Mr. Inserra follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. I thank the gentleman.
    The chair now recognizes Mr. Cohen for 5 minutes.

                   STATEMENT OF RICHARD COHEN

    Mr. Cohen. Thank you, Mr. Chairman. It is an honor to have 
the opportunity to testify before the subcommittees this 
afternoon.
    9/11 was the Pearl Harbor of our time. The anniversary that 
we just commemorated of that horrible day serves as a reminder 
of the continuing threat of terrorism associated with radical 
forms of Islam. But as members of these subcommittees know 
well, our country faces deadly threats from those blinded by 
racial and ethnic hatred, as well as rage at our government. 
Because the 9/11 attacks were so unexpected, so spectacular, 
and so deadly, however, these latter threats have not always 
been given the attention they deserve in the years since 9/11.
    The clearest example of this point comes from the history 
of the Domestic Terrorism Task Force the Justice Department 
established after the deadly Oklahoma City bombing. The task 
force was scheduled to have one of its monthly regular meetings 
on 9/11. But not only was that meeting cancelled, the task 
force didn't meet again for 13 years as the threat associated 
with groups like Al Qaeda came to dominate the government's 
attention.
    During this period, the number of hate and conspiracy-
minded antigovernment groups skyrocketed, and the level of 
violence from the radical rightincreased by a factor of four. 
By 2014, State and local law enforcement agencies were actually 
more likely to see antigovernment extremism as a threat than 
extremism connected with Al Qaeda or like-minded terrorist 
organizations.
    For the last 8 years, President Obama has been a lightning 
rod for the radical right. He reflects our country's changing 
diversity and has been a target of the backlash to that change. 
The day after he was first elected, Stormfront, the world's 
leading neo-Nazi Web site, whose members have committed 
numerous murders, reported that it was getting six times its 
normal traffic.
    Yet, when DHS released a report assessing the likely 
backlash to the election of our first Black President, the 
reaction from groups like the American Legion and Members of 
Congress was so fierce that the report was withdrawn and the 
DHS unit that produced the report was allowed to whither.
    In 2014, the Justice Department finally revised the 
Domestic Terrorism Task Force after a White supremist, Glenn 
Miller, killed three people in Overland Park, Kansas, who he 
thought were Jewish.
    But still there are indications that the threat of 
terrorism associated with groups like ISIS dominates the 
government's thinking. The Oklahoma City bombing was the first 
terrorist incident that President Obama mentioned in his speech 
at the White House Summit on Countering Violent Extremism in 
2015, but it was virtually the only mention of terrorism from 
the radical right during the entire summit.
    On June 17, 2015, Dylann Roof, a young man who appears to 
have been radicalized entirely online in the echo chambers of 
the radical right, killed nine people in an historic African 
American church in Charleston, South Carolina. Yet, 2 weeks 
after the massacre, the House Homeland Security Committee 
released a terror threat snapshot that didn't mention the 
church killings.
    Congress has held multiple hearings, as it should, on the 
threat of terrorism associated with groups such as ISIS and Al 
Qaeda, but neither the House nor the Senate has held hearings 
recently on the threat of terrorism from the radical right. Nor 
have the House or Senate held hearings on the threat of 
terrorism directed at law enforcement officials by 
antigovernment zealots such as the Bundys.
    By focusing exclusively on Muslim American communities, 
CVE, or countering violent extremism programs, not only ignore 
potential threats from other communities, they often fray the 
bonds of trust between law enforcement and the Muslim American 
communities that are so essential to effective law enforcement. 
The nature of many of the CVE programs exacerbates this 
tension.
    Again, the threat of extremist violence from groups and 
individuals associated with or inspired by ISIS is perhaps the 
most significant one that we face, but it is not the only 
threat that merits the full measure of our attention.
    Terrorism from the radical right has been with us since the 
days of the Ku Klux Klan, which was born after the Civil War. 
In recent years it has been driven by a backlash to our 
country's changing demographics and rage at our own government. 
As our country's diversity continues to increase, the forces 
that propel terror from the radical right are likely to 
increase as well.
    Thank you, Mr. Chairman.
    [Prepared statement of Mr. Cohen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. The gentleman's time has expired.
    The chair will recognize, if he wants, the ranking member 
of the Government Operations Subcommittee for his opening 
statement.
    Mr. Connolly. Thank you, Mr. Chairman. And let me echo what 
Mr. Cohen just said.
    I think it is a great distortion for us to focus only on 
the threat from the radicalization within the Muslim community 
in this country or abroad. It begs the question of lax gun 
control laws. It begs the question of the lack of universal 
background checks. It begs the question of hate speech. It begs 
the question of incitement at the fringes of the right-wing 
media that has enabled and empowered people to believe that 
their prejudice, their racism, their anti-Semitism, their 
hatred is somehow vindicated, justified.
    And if they are at the edge mentally? Timothy McVeigh in 
Oklahoma City, last time I checked, was not an Islamic radical. 
He blew up fellow Americans, including children. In my home 
State of Virginia, Virginia Tech, that tragedy did not involve 
somebody who was involved in radical Islam. He was a Korean 
American who was mentally ill. And until Orlando, he had the 
dubious record of having the single worst terrorist massacre, 
gun massacre, in American history. This coincided with the 
tragedy in Charleston at a Black church. That was a White 
supremacist.
    So there is plenty of hate to go around. Radicalization is 
a broader concept than just one religion or one ethnicity, and 
sooner or later this Congress has to come to grips with that.
    So I hope we broaden the dialogue, and I hope we take heed 
of Mr. Cohen's guidance, because I think we would be well 
served if we did.
    With that, I yield back, Mr. Chairman.
    Mr. DeSantis. The gentleman yields back.
    The chair now recognizes himself for 5 minutes.
    Mr. Mayer, does law enforcement need to change some of 
these prevention and investigative methods? If you look, Mateen 
had a lot of interaction with the FBI, and yet he ended up 
committing a devastating attack. The Tsarnaevs were on the 
radar. Nidal Hasan at Fort Hood was very much, should have been 
on the Army's radar for some of his behavior leading up to that 
devastating attack. So are these just things where nothing 
could have been done, or do we need to maybe change the 
investigative and prevention methods?
    Mr. Mayer. I think we actually need to make some reforms. I 
mean, in those cases, the reporting thus far seems to indicate 
that there was a disconnect between the Federal law enforcement 
entities and State and local, that there was not a sharing of 
information and intelligence of what was going on related to 
those individuals, and that threats, in fact, had been in the 
communities.
    Additionally, I think in my written testimony, I believe 
Mr. Cohen in his as well, talks about he had been removed from 
an investigation and therefore fell off of the list, so when he 
bought the guns there was no trigger. And I think that we 
should seriously consider where if you have been under 
investigation for this kind of violent extremism, that at least 
a red flag is risen that would allow law enforcement at the 
Federal, State, or local level to do follow-up, determine if 
there is a new threat there, and if additional surveillance 
needs to be done in terms of human intelligence.
    Because, again, as we get into this lone wolf and small 
cell environment, if we don't increase the amount of human 
intelligence work being done, and, again, do it in a way that 
protects civil liberties, it will make it extremely difficult 
in the age of encryption for us to make sure we can follow the 
threat all the way to the end. So I think there are some things 
we need to do differently, yes.
    Mr. DeSantis. Mr. Inserra, stopping attacks before they 
occur is obviously what we want to do. Once people are here, 
it's very much more difficult. If someone's a U.S. citizen, you 
can't treat them the same as you would a foreign terrorist 
operating overseas.
    What, in your analysis, if any, have you looked at things 
like terrorists travelling here? We have the Visa Waiver 
Program. This committee has done a lot of work on that. The 
fact of the matter is, if you are in Brussels or one of these 
places and you have a passport, a European passport, you are 
going to be able to come here. We have disputes about the 
refugee program and whether those people are vetted.
    And so does part of the strategy involve identifying people 
who could create a risk and using our border security and other 
laws to prevent to be able to prevent them from even coming 
here in the first place?
    Mr. Inserra. Certainly. That certainly is part of the piece 
of the puzzle. But I will note that, as part of my testimony, 
most of the plots that we currently are facing homegrown plots. 
So we don't see too many people who are coming in through the 
Visa Waiver Program or other legal immigration flows, and very 
few of those folks have come radicalized with the intent to 
attack the United States, at least in the past several years. 
Most of the threat is from homegrown radicals. All of them, in 
fact, most recently have been, except for, I think, the wife of 
the----
    Mr. DeSantis. The San Bernardino attacker. She clearly. So, 
I mean, that is just an example. She is obviously somebody who 
was coming here intending to harm the United States. There was 
evidence, pretty available evidence, of her being a militant 
Islamist, and yet she kind of gets a rubber stamp to come here 
on a fiance visa.
    Mr. Inserra. Yes. It certainly speaks to the importance of 
getting intelligence from our local partners, from our 
international partners, because the more information we can get 
flowing, as Matt talked about, at the State and local level, 
that can help them with their investigations, but it is also 
important that we are getting information from our 
international partners. And that information has to be flowing, 
especially in today's interconnected world. We have to be 
getting that information from our international partners.
    Mr. DeSantis. Mr. Gartenstein-Ross, there does seem to be a 
trend, and this is not just in the United States. If you look 
in Western Europe, there is a much stronger homegrown threat 
than there was 10 years ago. We are seeing it here in the 
United States. And, yes, some people are natural born 
Americans. Some have immigrated here.
    But why is this happening now? Is it because you see the 
rise of the Islamic State and that is inspiring more people? Or 
is there something else?
    Mr. Gartenstein-Ross. I think you have a confluence of a 
few different factors at play. One is, indeed, the rise of 
ISIS. We can see an explosion in homegrown jihadist cases since 
ISIS was able to capture territory in Iraq and Syria and 
declare itself a caliphate.
    At the same time, the two factors I pointed to in my 
testimony, social media and encryption, both play a role. 
Social media allows much more interconnectedness. It can 
facilitate trajectories of radicalization across ideologies. 
And encryption has allowed much more robust networks to be at 
play.
    I would point to two other things as well. One of them is I 
think that across Western states, including in the United 
States, there is a declining trust in government. A lot of 
ideologies, ranging from jihadism to sovereign citizens to 
extreme right or extreme left terrorism, profit from a 
situation where it seems that the government has a great 
disconnect from citizens.
    We can certainly see these sentiments at play, and I think 
focusing on the question of how well is the U.S. Government 
doing institutionally, how much transparency does it have, how 
well is it seen as effective, is a very important question.
    The final thing that I would point to is that across the 
Middle East and North Africa, we have a situation where 
multiple countries are experiencing great problems. That has 
helped to drive the refugee crisis that you point to. Looking 
at recent trends in violence in Europe, both jihadist violence 
and also far right violence, we can see how this human 
migration into Europe does have a clear nexus with some of the 
recent incidents.
    Mr. DeSantis. My time has expired. I now recognize the 
gentleman from Massachusetts for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman.
    And, again, thank you for your testimony to all the members 
of the panel.
    One of our tasks in investigating radicalization is to look 
at the attacks and try to discern what motivated the 
individuals who conducted these attacks. And I want to point to 
the situation in Orlando where Omar Mateen killed 49 people at 
the Pulse nightclub, and I think he wounded about 53 others.
    Now, the FBI had investigated him a few years prior. He had 
made some statements that his family had connections with Al 
Qaeda. He also made some statements, apparently, to witnesses 
that he had joined Hezbollah. So he was investigated in 2013 by 
the FBI.
    Then, in 2014, he had some connections, some links to Moner 
Mohammad Abu-Salha, who was a suicide bomber, and he was an 
American. I think he went to the same mosque as Mr. Mateen, and 
so there were connections there. The FBI went back in again and 
did due diligence and investigated him again.
    Then it seems like he dropped off the screen again, and we 
don't hear from him again until the attacks in 2016.
    Now, he called, he made a couple of 911 calls. He said 
during the attacks that he pledged allegiance to ISIL. I think 
he called back again and reiterated that. And he said himself 
at that moment that that is why he was doing that.
    Now, under the rules of evidence--I know I have three 
attorneys here--under the Federal Rules of Evidence, when you 
have a statement from someone, a dying declaration--he 
certainly knew he was going to die. He was in a shootout with 
the police. He was completely surrounded. He had a lot of 
weapons, but he knew he was going to die. He again said that 
that is why he did it. It was in support of ISIL.
    Now, under the Federal Rules of Evidence, we try to discern 
the evidence that is most reliable and we try to keep out the 
evidence that is least reliable. And under our rules, under the 
Federal Rules, we allow a dying declaration to come in because 
of its veracity. Well, not because of veracity, but that is in 
the mind of the person, and they know they are going to die, 
and so we give it enhanced credibility.
    Now, despite all of that, the two investigations by the 
FBI, the connections with Abu-Salha, his own statements, the 
day after the attacks, I know that Attorney General Loretta 
Lynch and others said we are going to launch an investigation 
to find out why he did this. And I just wonder, I just wonder, 
are we purposely looking away from this issue sometimes because 
of the sensibilities involved?
    Let me turn it around. What would lead me to believe that 
with all that evidence and his own statements, the dying 
declaration, what would lead me to believe that that was not 
the reason that he took that action and attacked those people 
in Orlando?
    Mr. Gartenstein-Ross, have a crack at it.
    Mr. Gartenstein-Ross. I don't think there is anything that 
should lead you to believe that that didn't represent his 
intention. There of course was some rather salacious gossip 
that came out afterwards about him possibly being a closeted 
gay. I put it that way because he by all accounts was highly 
homophobic, and so there is the cognitive dissonance argument. 
But none of that evidence has really stacked up, and the FBI 
has said publicly that they believe that it was highly 
exaggerated. His previous time in the Pulse nightclub seems to 
be consistent with him casing the nightclub.
    I think we do tend to be very trepidacious about 
attributing any sort of causal power to ideology. That is true 
within this field of study as a whole. And I think it is a 
trepidation that doesn't necessarily match with how people are 
actually motivated.
    Mr. Lynch. I was just wondering how we weigh the evidence.
    Mr. Mayer.
    Mr. Mayer. Yeah. I think oftentimes we don't want to see a 
cigar that is just a cigar. And for some reason that is good. 
We need to be cautious. We are in a horrible fight with a very 
determined enemy that doesn't play by any rules of 
civilization.
    At the same time, I find it somewhat ironic that we don't 
take the same caution when it comes to other types of violence. 
We are very quick to then jump in and put a label on that even 
before there are facts, especially the Omar Mateen facts, none 
of those types of facts, but we will jump in rapidly and label 
those types of attacks.
    So I think probably an ounce of caution is okay, but when 
the facts start to build, maybe we need just to call the cigar, 
the cigar.
    Mr. Lynch. Okay. My time has expired. I yield back.
    Mr. DeSantis. The gentleman yields back.
    The chair now recognizes Mr. Meadows for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman.
    So, Mr. Mayer, let me come to you. So you were saying that 
sometimes we will not label something what it really is. Why is 
that? Why do we not do that?
    Mr. Mayer. One, I think there are the reasons where it 
makes sense where we have got to be careful before we cast 
judgment and make sure that the facts fit what it is we are 
going to say. But once they are there, we need to, I think, 
call it what it is.
    Mr. Meadows. So do you see the radicalization of Islamic 
terrorism to be one of the key national security threats that 
we are facing today?
    Mr. Mayer. Oh, I most certainly do. I have spent a decade 
writing about it.
    Mr. Meadows. Is it the key? Is it the top priority that we 
need to be facing as it relates to terrorism?
    Mr. Mayer. Oh, as it relates to terrorism, yeah, of course 
it is, yeah. I mean, we have got to first stop it at its 
source.
    Mr. Meadows. The reason I ask is that Mr. Cohen seems to 
believe that radical right-wing groups are of equal concern.
    Is that correct, Mr. Cohen.
    Mr. Cohen. That is not what I testified to either in 
writing or here. I wouldn't argue with the point that the 
threat of terrorism----
    Mr. Meadows. Well, you brought those up. So I guess the 
question, you were just saying that are we spending a 
disproportionate amount of time on radical Islamic extremists 
to the exclusion of right-wing extremists? Is that what you 
were saying?
    Mr. Cohen. I think there is no question but that that is 
true.
    Mr. Meadows. So, Mr. Cohen, if you are looking at that, is 
it not true that our law enforcement groups, the FBI, et 
cetera, they know how to deal with other extremist-type groups, 
that that is not a new phenomenon? Your group has been involved 
in that since the early 1970s. Isn't that correct?
    Mr. Cohen. Since about 1980.
    Mr. Meadows. Okay. So since 1980, your group has been 
involved in that. So this is not something new that law 
enforcement is having to figure out today. It is not changing 
radically in the way that they are radicalized, although they 
may use the Internet to give out information a little bit more, 
but it is not inherently different than what your group has 
addressed since the early 1980s. Is that correct?
    Mr. Cohen. It is correct. And if I could just add one 
point. I think law enforcement has a great deal of expertise in 
these areas, but I also think that the record is clear that 
after 9/11 law enforcement took its eye off that ball.
    Mr. Meadows. Well, I would disagree with you there.
    Mr. Cohen. That would be fine.
    Mr. Meadows. Because let me tell you what I found in 
talking to my law enforcement officers of both Democrats and 
Republicans, sheriffs of both parties, is they understand how 
to go after the traditional threats. They have been well 
trained. They understand the investigative techniques. In fact, 
they can actually anticipate many times--obviously not all the 
times because of the horrific incident that you talked about in 
South Carolina where the gentleman was actually caught in my 
State. And so we understand how to do that. Law enforcement 
does that.
    But what they are not prepared for is this new terrorism 
threat in their communities of which they are, honestly, we are 
having to do unbelievable training, but they still don't 
understand it, and so that is the reason for the hearing today. 
Does that make sense, Mr. Cohen?
    Mr. Cohen. I understand what you are saying.
    Mr. Meadows. Okay. And if I look at the numbers, I think 
the other thing that is troubling is that, I start to look at 
the numbers, the number one group that we have to be concerned 
about really with total attacks in the last 2 years was the 
Taliban first, in 2014 and 2015, then ISIS, or ISIL, and Boko 
Haram after that. So, I mean, if you look at the totals in 
terms of where we are at.
    But here is the concern that I have.
    Mr. Meadows. Mr. Mayer, in our inability to name it for 
what it is, because we call it violent extremism at times 
instead of violent Islamic extremism, and we do that many times 
trying not to attach a religion to it, but we miss the whole 
point of what some of that might be in terms of going after the 
real enemy, don't we, Mr. Mayer?
    Mr. Mayer. I think we do. In addition to that, we also 
chill the, I think, interest, ability of everyday Americans 
then to kind of speak up when they think something may be 
missed because they have been taught that if they raise their 
voice----
    Mr. Meadows. They are afraid to be either racist or 
whatever.
    Mr. Mayer. Yeah, something like that. So I think that is 
without a doubt an issue we've got to address, because I know 
we saw in San Bernardino the neighbor did not raise concerns 
because they didn't want to be labeled. And as a result, there 
was not an opportunity to kind of go into that house and 
potentially see the stockpiles that were being put together.
    Mr. Meadows. So your message to them today would be that if 
they see something that is of concern to them, even at the risk 
of being politically incorrect, they need to quietly reach out 
to their law enforcement agencies in the community if they see 
something that is of concern. Is that correct?
    Mr. Mayer. I think that is correct. And, hopefully, the law 
enforcement community has done its job over the years to build 
relationships where they can do that in a soft-handed way that 
isn't going to essentially look like it's profiling or things 
like that. It's going to be responsible, it's going to be done 
discreetly. Sometimes people see things that aren't there, but 
we need to be vigilant, because that's one of our key elements 
of defense, domestically speaking.
    Mr. Meadows. I thank the gentleman. I yield back.
    Mr. DeSantis. The gentleman yields back.
    The gentlewoman is recognized for 5 minutes.
    Ms. Plaskett. Thank you so much.
    Good afternoon, gentlemen. Thank you for your testimony 
here.
    I wanted to talk with you all about not just 
radicalization, but the potential of once an individual may be 
radicalized, how to prevent terrorist attacks from those 
individuals.
    We've learned in the most recent and historically deadly 
domestic terrorist attacks that in that instance the shooter, 
Omar Mateen, had at one time been listed on the FBI's terrorist 
watch list. And this has revived a debate here in Congress 
about proposals prohibiting individuals from those lists in 
purchasing weapons and particularly guns.
    According to a CNN poll, 85 percent of Americans support 
banning people on Federal terrorism watch lists from buying 
firearms, and that includes 90 percent of Republican 
individuals in this country.
    Mr. Cohen, it is so good to see you here. Our last meeting 
was in Alabama some time ago.
    Mr. Cohen. On voting rights.
    Ms. Plaskett. Yes. And I wanted to ask you, what do those 
numbers say to you about U.S. opinions on efforts to prevent 
suspected terrorists from buying guns?
    Mr. Cohen. Obviously, the issues that you raised are very, 
very serious ones. And I don't think that we at this point have 
a position on some of the measures that have been brought up in 
Congress.
    One thing that Mr. Mayor said that I do think is worth 
considering, Mr. Mateen, of course, had been investigated twice 
by the FBI. It would have been possible to put a notation in 
the NICS system about that to alert the officers who had 
investigated him that he was buying a weapon.
    Now, maybe that would have been arguably unfair, but it 
wouldn't have prevented him, but it could have, perhaps, if a 
law enforcement agent had suspected that, ``Boy, that was a 
close call,'' it might have led him to renew the investigation 
and find something out that could have prevented those deaths.
    Ms. Plaskett. Mr. Mayer, I see you nodding your head in 
agreement on that.
    Mr. Mayer. Well, sure, whenever anyone says they agree with 
what I have to say, I nod my head.
    Ms. Plaskett. I agree with that as well.
    What you're talking about reminds me of a proposal, one of 
the amendments when the Senate took up this legislation, 
Senator Feinstein's amendment, which reflected legislation 
proposed in 2007 which would give the Attorney General the 
discretion to block a gun sale to a prospective buyer listed on 
a terrorist watch list; or uniquely, the measure would also 
require notification to the FBI if someone who had been on the 
terrorist watch list within the last 5 years was attempting or 
purchasing to buy a gun.
    And that, Mr. Mayer, I understand is in your testimony what 
you call, I quote, ``common sense'' to require the FBI to be 
notified of those purchases.
    Had this law been in place, the FBI would have been 
notified that Mr. Mateen was trying to buy a gun.
    Mr. Mayer, do you have any additional thoughts on that?
    Mr. Mayer. I think that is common sense. I mean, if you 
look at it this way, had the FBI gotten the alert that he had 
bought the gun--because I think you've got to be careful about 
saying prohibited from buying the gun, he hadn't done anything 
wrong at that point, but buying the gun--they could have either 
themselves or through local law enforcement gone to the gun 
shop, asked questions--was there any type of nervousness, 
suspicious behavior, things that would have tinkled your bell?
    Ms. Plaskett. So they would have been able to revisit him, 
Mr. Mateen, having been on the watch list, if at least they had 
been pinged or notified that, hey, this individual has 
purchased a gun.
    Mr. Mayer. Well, possibly not on the watch list, but just 
go talk to the gun store owner, and if there was enough 
evidence there, they then could have maybe started more 
surveillance, monitoring undercover, and then had enough 
evidence to go to a judge for a warrant inside the home, and 
then they could have done some different stuff.
    So the point is it could have started a chain of events 
that could have prevented the Orlando massacre from happening 
had we had some type of system in place that didn't stop a 
constitutional right for him to buy a gun, but at least notify 
law enforcement that somebody who had been under surveillance 
before was now engaging in a next step to potential violence.
    Ms. Plaskett. And, Mr. Gartenstein-Ross, would you agree as 
well?
    Mr. Gartenstein-Ross. Yes, I do agree with that. And I'd 
point to another example as well, which is there's a case in 
Little Rock in which a man named Carlos Bledsoe carried out an 
attack at a joint Army-Navy recruiting center. Prior to 
carrying out that attack, he had gone into a Walmart to 
purchase a .22. He did not use it in the attack. The reason he 
went into the Walmart to buy that gun was to see if he was on a 
watch list.
    Now, there was no notification, but it was specifically 
part of his attack planning to buy that weapon. So it is 
another example of where it could have helped in terms of 
investigation.
    Ms. Plaskett. Thank you.
    All of the examples and the testimony that you're giving 
here, points that we can't know for sure, but it's possible 
that Senator Feinstein's measure would have in some measure 
been able to help foil Mr. Mateen's plan. Unfortunately, that 
amendment failed, as did amendments that have required 
background checks on practically all gun sales.
    But what I can say at least is that the Senate at least 
attempted to have a discussion on this. They put it up for a 
measure and there was a vote. Unfortunately, here in the House 
we have not had that hearing, that debate, or that discussion 
or that vote, and we would desperately love to have that. And I 
believe that some of your testimony shows that that would be 
true as well.
    Would you say so, Mr. Cohen.
    Mr. Cohen. I would. And also I would say that there is a 
lot of misunderstanding about the Heller decision. It leaves 
plenty of room for reasonable measures relating to the sale and 
possession of firearms, and I think that point is not well 
understood, quite frankly.
    Ms. Plaskett. Thank you so much.
    And thank you for the time, Mr. Chairman.
    Mr. DeSantis. The gentlelady's time has expired.
    The chair recognizes Mr. Duncan for 5 minutes.
    Mr. Duncan. Thank you, Mr. Chairman.
    A few months after 9/11, The Wall Street Journal had an 
editorial which said, when they noticed that almost every 
department and agency had submitted additional requests for 
money based on security, they said any time an agency requests 
more money for security we should give it twice the weight and 
four times the scrutiny.
    And then, a year after 9/11, a Tennessee corporation, 
FedEx, told me they had spent $200 million on security that 
they wouldn't have otherwise spent if 9/11 hadn't happened.
    About that same time, when I was driving into work here one 
morning, I heard on NPR that 1 year after 9/11 we now had over 
3,000 registered lobbyists on homeland security.
    And then, a few years ago, I read this article by Ian 
Lustick, a professor at the University of Pennsylvania. He 
said: ``Why is the war on terror so enormous, so all 
encompassing, and still expanding? The fundamental answer is 
that Al Qaeda's most important accomplishment was not to hijack 
our planes, but to hijack our political system.
    ``For a multitude of politicians, interest groups, 
professional associations, corporations, media organizations, 
universities, local and State governments, and Federal agency 
officials, the war on terror is now a major profit center, a 
funding bonanza, and a set of slogans and sound bites to be 
inserted into budget, project, grant, and contract proposals. 
For the country as a whole, however, it has become a maelstrom 
of waste.''
    Then, last year, CNN had this. It said: ``Defending the 
country against terrorism--especially the apocalyptic variety 
practiced by ISIS--is expensive. How expensive? 'The answer is 
a lot and very hard to break out,' said Gordon Adams, a 
national security budget expert. Adams estimates that the U.S. 
spends at least $100 billion a year on counterterrorism 
efforts.''
    And lastly, the Nieman Watchdog Web site at Harvard 
University estimated that we've spent over $1 trillion on 
domestic security efforts since 9/11, and it said, quote: ``For 
the counterterrorism spending since 9/11 to be fully justified, 
Homeland Security would have had to deter, prevent, foil, or 
protect against 1,667 Times Square-style attacks a year, or 
more than four attacks a day.''
    Now, I want to make clear, I'm not saying we shouldn't be 
spending any money, but I think we're spending much of our 
terrorism money in the wrong way. I can tell you, one former 
Member of Congress said we did everything we needed to do on 
the planes when we secured the cockpit doors. Yet we spend 
billions at the airports now, and we've got these air marshals 
that fly back and forth, back and forth, the easiest job in the 
Federal Government. There have been more air marshals arrested 
than arrests made by air marshals. I think they now spend, it 
comes out to over $200 million per arrest.
    And the big threats now are, I think, totally different. I 
think they come from cybersecurity. I think it would be much 
more dramatic, for instance, than the planes if somebody blew 
up a major college football game or a mall at Christmas or 
poisoned the water supply of a major city or something like 
that.
    So I think that, number one, we're wasting an awful lot of 
money that, to me, could be spent in much more helpful ways, to 
get better housing for people or cure cancer or education or 
almost anything. And yet we are pouring it down this security 
rat hole just because everybody in Congress is scared to vote 
against anything that says security and all of us want to be as 
tough as possible.
    But I also think that we need to use a little common sense 
on some of these things. I'm the only Republican left in 
Congress who voted against the war in Iraq. I think I am the 
only Republican who wants to close down Guantanamo because 
we're spending ridiculous amounts to keep Guantanamo open. So I 
look at things a little differently from most people, I guess.
    I'm out of my time really, but if the chairman will allow 
it, I would be interested to hear comments about how we can 
more efficiently spend all this money that we are spending on 
security measures.
    Mr. Gartenstein-Ross. Sir, I think it's a great question. I 
assume you want to go down the line.
    Mr. Duncan. Yes.
    Mr. DeSantis. His time is--so if you want to go, and then 
I'm going to recognize Mr. Hice. So go ahead and say what you 
were going to say, but the time has expired. So then I'm going 
to recognize Mr. Hice after you finish your comment.
    Mr. Gartenstein-Ross. All right.
    So the last mass market book I wrote, ``Bin Laden's 
Legacy,'' gets into at great detail a lot of wasteful spending 
that we've used in pursuing the war on terrorism. I also, as 
you can see in my truth and testimony form, do work for a 
company that is a contractor for the Federal Government, Valens 
Global, as does Ian Lustick, not for the same company, but the 
first person you quoted also works in that industry. Both of us 
have offered critiques from within the industry.
    The main thing I would say is the way Federal Government 
tends to spend its money doesn't make any sense to me, right? 
It is not just Homeland Security spending, but every kind of 
spending that is done makes almost no sense. If it were private 
industry it would never be done that way.
    Even when it is meant to save money, like lowest cost 
technically acceptable bids, we've seen bids where the 
difference between the winner and the loser was 3 cents. Now, 
any of us, if we were looking for a contractor to fix our HVAC 
system or to do our roof, we would never say, ``Okay, honey, 
the problem is settled, this one wins by 3 cents,'' right? We'd 
start to look into quality.
    Inherently, the government tends to make proposals cost a 
large amount of money. I've see proposals that have cost 
millions or tens of millions of dollars for a contractor to put 
together. And when that's the system, of course the product is 
going to cost so much more.
    I think looking at the process of acquisition, and then the 
second thing is monitoring and evaluation of what the benefit 
is that we're getting, focusing on those two questions could 
help to produce a needed revolution in this area.
    Mr. Duncan. Thank you.
    Mr. DeSantis. The chair now recognizes the gentleman from 
Georgia for 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman. And I really appreciate 
this hearing.
    All of us understand deeply how serious the problem is, and 
the radicalization in homegrown terror is something that we 
have got to get on the front end of. So I appreciate each of 
you showing up.
    Mr. Chairman, I would ask unanimous consent to enter a 2014 
article from the Journal of Forensic Sciences entitled 
``Bombing Alone: Tracing the Motivations and Antecedent 
Behaviors of Lone-Actor Terrorists.''
    Mr. DeSantis. Without objection.
    Mr. Hice. Thank you very much.
    This was actually co-written by Dr. John Horgan, who is a 
leading scholar at Georgia State University. And the reason I 
wanted to bring this article up, he traces--analyzes, I guess, 
is a better word--119 loan-actor terrorists, particularly 
leading up to events before the act that they committed. And 
some of the findings, I'm not going to go into a great deal of 
detail here, but I want to bring a couple of highlights out of 
this article that I found personally just to be astounding.
    In 79 percent of these cases others were aware of the 
individual's commitment to a specific extreme ideology, almost 
80 percent of the time. In 64 percent of the cases family and 
friends were aware of the individual's intent to engage in 
terror-related activity. And the reason is because the person 
verbally told them what they were going to do.
    In 58 percent of the cases other individuals had specific 
information about this individual and their intentions prior to 
the act. And in nearly 60 percent of the cases, the offender 
actually made public statements.
    I mean, when you get this kind of information, I would 
think that a study looking at 119 different actors, you can 
draw some pretty specific conclusions, and the information here 
to me was pretty startling.
    I'm sure each of you are aware of the case in my area, the 
Tenth District of Georgia, Leon Nathan Davis was actually in 
prison for drug trafficking, and it was while there that he was 
converted to Islam. But when he got out of prison he was 
radicalized by online media and social media and that type of 
thing.
    And, I mean, just like the studies that I just referenced 
by Dr. Horgan, Davis did similar things, he made public his 
intentions. And, fortunately, he was on his way to Turkey, from 
Atlanta to Turkey, and, fortunately, the Atlanta police, along 
with the FBI, intercepted, and he is today serving 15 years. 
We're grateful for that.
    But I guess what keeps so many of us up at night is just 
the big, huge question mark: How many Davises are there out 
there that we're not catching? And we all know they're out 
there.
    And I don't really know who to address this couple of 
questions, so I'm just going to kind of open it up to you, but 
if you would be as brief as possible. But what can be done to 
continue to improve communications between Federal and local 
law enforcement as we're trying to capture these people?
    Mr. Mayer. I think one of the things that we need to do is 
make sure that they are in the same room, and oftentimes 
they're not. We have created a system that we have a bifurcated 
system. We have a JTTF somewhere in a city and typically we 
have a State and local fusion center elsewhere, and they may be 
connected through intelligence pipelines or email, but they are 
not there physically together.
    So I think to the degree that we can bolt them together, 
that will help us make sure that information and intelligence 
is populated across that room in order to ensure we give 
ourselves the greatest chance of detecting and stopping a 
potential attack.
    Mr. Hice. Well, let me just throw this out one step further 
in this. What can we do to help in the whole communication 
between Federal and local communities so that when family and 
friends or others see stuff they go to the authorities rather 
than stay silent?
    Mr. Mayer. Well, I think you have to build relationships. 
You have to create an environment where law enforcement can 
build relationships with the at-risk communities, because if 
they don't exist, there is going to be a lack of trust.
    I mean, remember, many of the folks that are coming come 
from countries in which law enforcement is not a good thing. 
And so we've got to kind of tear down those historical mistrust 
notions and get to a point where they know that they can talk 
to law enforcement and it doesn't mean that their son is going 
to be thrown in jail or sent to Guantanamo Bay, it simply means 
they are going to create an off-ramp to get that person away 
from the radicalization pathway and elsewhere and back into the 
fold of the community.
    So we have got to, I think, increase those relationships, 
which is why I put out the piece about a month ago on creating 
regional outreach groups all over the country, including in 
Atlanta.
    Mr. Hice. Thank you, Mr. Chairman.
    Mr. DeSantis. The gentleman yields back.
    I ask unanimous consent for a series of articles involving 
the Southern Poverty Law Center be placed into the record. 
Without objection, so ordered.
    Mr. DeSantis. I'd like to thank the witnesses for attending 
today. And without further business, this hearing is adjourned.
    [Whereupon, at 3:40 p.m., the subcommittees were 
adjourned.]

                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
